"The enclosed 

InspectorContents
5106.1.            Re'ease~~o~r~3~

          General.may be
henrto.conteen~t~s~~~~
the       S                     In"pelctor
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www. dodi g.rnil/auditlreports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                        ODIG-AUD (ATTN: Audit Suggestions)
                        Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                        Arlington, VA 22202-4704

 CEFA"TWtHl Of DfHHS




                       line
                                  To report fraud, waste, mismanagement, and abuse of authority_

 h  I"\f
 I IV             ~
                                  Send written complaints to: Defense Hotline. The Pentagon. Washing!OfI, DC 20301·1900
                                  Phone: 8CKI.424.9098 e-mail: hodine@dodig.mil WIWI.dodig.miVhotnne




Acronyms and Abbreviations
Ace                           Air Combat Conunand
ASC                           Aeronautical Systems Center
CAPS                          Consolidated Acquisition of Professional Services
CECOM                         Conununications and Electronics Conunand
COR                           Contracting Officer's Representative
CSAR-X                        Combat Search and Rescue Helicopter
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
IG                            Inspector General
IGCE                          Independent Goverrunent Cost Estimate
R2                            Rapid Response
U.S.C.                        United States Code
                                        INSPECTOR GENERAL 

                                      DEPARTMENT OF DEFENSE 

                                         400 ARMY NAVY DRIVE 

                                    ARLINGTON , VIRG INIA 22202- 4704 





                                                                                                May 4, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              ASSISTANT SECRETARY OF THE ARMY
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
              ASSISTANT SECRETARY OF THE AIR FORCE
                 FINANCIAL MANAGEMENT AND COMPTROLLER)
              AUDITOR GENERAL, U.S. ARMY AUDIT AGENCY

SUBJECT: 	 Advisory and Assistance Services Contracts in Support of the Air Force Combat
           Search and Rescue Helicopter (Report No . D-201O-054) (U)

(U) Weare providing this report for review and comment. We considered management
comments on a draft of this report from the Acting Executive Deputy to the Commanding
General, U.S. Army Materiel Command, and from the Deputy Assistant Secretary for
Acquisition Integration, Office of the Assistant Secretary for the Air Force for Acquisition, when
preparing the final report. The Office of the Acting Executive Deputy included comments from
the Executive Director, U.S. Army Contracting Center, Communications and Electronics
Command. The Office ofthe Air Force Deputy Assistant Secretary included comments from the
Commanders, Air Combat Command and Aeronautical Systems Center, and the Air Staff.

(U) DOD Directive 7650.3 requires tliat recommendations be resolved promptly. With a few
exceptions, the Army and Air Force comments were responsive. Based on Army and Air Force
comments, we revised final report Recommendation Al and request additional comments. The
Army comments regarding this recommendation were nonresponsive. Army comments
regarding Recommendation A3 were responsive; however, in subsequent discussions with
CECOM management their planned actions would not meet the suspense date contained in their
official comments. Army comments to Recommendation B.1 were responsive; however, the
Army was unable to provide us with validation that their planned action had been completed.
Therefore, we request that the Commander, U.S. Army Communications and Electronics
Command, provide further comments to Recommendations AI, A3 , and B.1 by June 4,2010.
Air Force comments regarding Recommendations A.2 .a, A2.b, and A.2.c were partially
responsive. Therefore, we request further comments from the Commander, Air Combat
Command, on these recommendations by June 4, 2010. As a result of Air Force comments, we
renumbered the draft report Recommendation B.2.a as B .2 and Recommendation B.2.b as
Recommendation B.3 in the final report. Air Force comments regarding Recommendation B.I
and B.2 were responsive but additional actions are needed. Therefore, we request further
comments from the Commanders, Air Combat Command and Aeronautical Systems Command,
on these recommendations by June 4, 20 10.


                                               Special Warning
 This document cont31aliiin~.l;Q!:at!!tion exempt from mandatory disclosure"J!lIllio""'\Ue Freedom of
 Information Act.

 This report contains contractor informatio            ay be             confidential or proprietary.
 Section 1905, title 18, United Sta        e, and section 423, title 41,          ates Code, provide
 special penalties for th         orized disclosure of company confidential or pro'            information.
 This report         e safeguarded in accordance with DoD Regulation 5400.7-R.
(U) Ifpossible, send a .pdffile containing your comments to audacm@dodig.mil. Copies of
your conm1ents must have the actual signature of the authorizing official for your organization.
We are unable to accept the /Signed! symbol in place of the actual signature. If you arrange to
send classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

(U) We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management




                                  Special Warning 

This documen       ins information exempt from mandatory discIosur
!MOO~U
Freedom of Informatioll ~_ _ _

This report contains contractor information          ay be company confidential or
proprietary. Section 1905, title 18,    .     tates Co c,      ection 423, title 41, United
States Code, provide specia        ties for the unauthorized disc         f company
confidential or pr       ry information.    This report mnst be safeguarde           ordance
with DoD        ation 5400.7-R.

                                  F9R 9FFJElJA'" "813 9P1"'Y
Report No. D-201O-0S4 (Project No. D2009-DOOOAB-0073.000)                 May 4, 2010


             Results in Brief: Advisory and Assistance
             Services Contracts in Support of the Air Force
             Combat Search and Rescue Helicopter (U)
                                                       perform an incurred cost audit for one task
   What We Did (U)                                     order; CECOM, ACC, and ASC develop
                                                       guidance on inherently governmental fimctions
   (U) We determined whether contracting for           and personal services; ACC and ASC instruct
   advisory and assistance services supporting the     contracting officials to document and fully
   Air Force Combat Search and Rescue                  support independent govermnent cost estimates
   Helicopter (CSAR- X) complied willi llie            and price reasonableness determinations,
   Federal Acquisition Regulation (FAR) and            identify contractor positions for conversion to
   DOD guidance. We conducted this audit in            civilian/military positions, and prepare quality
   response to concerns expressed by Senate and        surveillance plans that specify the work that
   House Armed Services Conunittee staff. We           requires surveillance and the type of
   reviewed four advisory and assistance services      surveillance to be performed; and ASC issue
   task orders supporting the combat search and        guidance prohibiting contractors from drafting
   rescue mission, awarded from FY 2006 through        agency comments on Inspector General reports.
   FY 2009, totaling $32.7 million.
                                                       Management Comments and
   What We Found (U)
   (U) u.s. Anny Cornrnwrications Electronics
                                                       Our Response (U)
   Command (CECOM) and Air Force contracting           (U) Army conunents to Recommendation Al
   officials did not obtain competition or ensure      were nomesponsive. Army conunents
   fair and reasonable prices when awarding and        regarding Recommendation A.3 were
   administering advisory and assistance services      responsive; however, in subsequent discussions
   task orders supporting the combat search and        with CECOM management their planned
   rescue mission. This occurred because officials     actions would not meet the suspense date
   limited the amOllllt of time contractors had to     contained in their official comments. Anny
   respond to requests for proposals, prepared         comments to Reconunendation B.I were
   inadequate independent government cost              responsive; however, the Army was unable to
   estimates, performed inadequate price and           provide us with validation that their planned
   technical analyses, and did not conduct             action had been completed. Therefore, we
   contractor surveillance. In addition, contracting   request that the Conunander, CECOM, provide
   officials permitted contractors to perform          further conunents on Reconunendations AI,
   potential personal services on three task orders    A3, and B.l.
   and inherently governmental functions on one        (U) Air Force comments to Reconunendations
   task order. This occurred because contracting       A2.a, A2.b, A2.c, and B.2 were partially
   officials did not comply with the FAR and           responsive; however, the Air Force did not
   lacked policies and procedures to make sure         specify action taken to ensure cost estimates
   that contracting officers provide adequate          and price reasonableness determinations are
   contract oversight of contractor performance.       fully supported or provide completion dates for
   As a result, the Air Force has no assurance it      planned action. Therefore, we request that the
   obtained the best value or that the contractors     Conunander, ACC, provide further comments
   performed effectively or efficiently on the task    on Recommendations A.2.a, A2.b, A.2.c, and
   orders valued at $32.7 million.                     B.2 and the Conunander, ASC, provide further
                                                       comments on Recommendation B.2. Please see
   What We Recommend (U)                               reconunendations table on the back of this page.
   (U) Service Acquisition Executives establish
   reasonable solicitation response time frames
   and the Defense Contract Audit Agency
 Report No. D-2010-0S4 (Project No. D2009-DOOOAB-0073.000)                    May 4,2010

 Recommendations Table (U)

I Management (U)                      I Recommendations                 No Additional
                                          Reqnirin~   Comment (U)       Comments Required (U)
 Commander, u.s. Army                 I A. I, A.1, R.I
 Communications and Electronics
 Command
                                                                    I
I Commander, Air Combat Command       I   A2.a, A2.b, A2.c, B.2         B.l
                                                                    I
 Commander, Aeronautical Systems                                        AI, A2.a, A2.b, A2.c,
 Center                               I B.2                             B.l, B.3, B.4


 (U) Please provide comments by June 4, 2010.




                                              11
Table of Contents

Introduction                                                                 1


      Objective                                                              1

      Background                                                             1

      Review ofInternal Controls                                             3


Finding A. Award and Administration of Advisory and Assistance Services 

Contracts                                                                    4


      Reconunendations, Management Comments, and Our Response                8


Finding B. Contractor Performance of Inherently Governmental 

Functions                                                                   12 


      Reconunendations, Management Comments, and Our Response               18 


Appendices 


      A. 	 Scope and Methodology                                            22 

              Prior Coverage                                                22 

      B. Task Order Deficiencies 	                                          23 

      C. Description of Task Orders Reviewed                                24 


Management Comments 


      Department of the Army                                                25 

      Department of the Air Force                                           31 

THIS PAGE INTENTIONALLY LEFT BLANK 

Introduction (U)
Objective (U)
(U) We detennined whether contracting for advisory and assistance services supporting
the Air Force Combat Search and Rescue Helicopter (CSAR-X) complied with Federal
Acquisition Regulation (FAR) and DOD guidance. We perfonned this audit to address
concerns raised by the Senate and House Anned Services Committees regarding the
Air Force's Air Combat Command (ACC) use of advisory and assistance service
contracts in support of the CSAR-X. See Appendix A for a discussion of the scope and
methodology and prior coverage related to the objective.

Background (U)
(U) ACC is the Air Force's lead agent for combat search and rescue operations. In
October 2003, the CSAR-X program and mission transferred from ACC to the Air Force
Special Operations Command. On October 1, 2006, the combat search and rescue
mission was transferred back to ACC. Headquarters Aeronautical Systems Center
(ASC), located at Wright Patterson Air Force Base, Ohio, designs, develops, and delivers
aerospace weapon systems and capabilities for the u.S. Air Force, including the combat
search and rescue program.

The CSAR-X Program (U)
(U) The primary mission of the U.S. Air Force combat search and rescue program is to
recover isolated personnel from hostile or denied territory. Currently, the Air Force uses
the HH-60G Pave Hawk helicopter for combat search and rescue operations. An
October 5, 1998, ACC-prepared CSAR-X mission needs statement highlighted HH-60G
capability shortfalls in service life; flight characteristics; survivability; responsiveness;
cabin space; adverse weather capability; mission equipment; hoist; night vision goggles
compatibility; avionics; human factors; and command, control, communication,
computer, and intelligence interoperability. The CSAR-X will replace the current fleet of
HH-60G helicopters.

CSAR-X Advisory and Assistance Task Orders (U)
(U) Both ACC and ASC use advisory and assistance services contracts to support
ongoing combat search and rescue operations, including the planned CSAR-X
acquisition. ACC and ASC obtained CSAR-X advisory and assistance services by
placing task orders under separate multiple-award contracts at the U.S. Army
Communications and Electronics Command (CECOM) and ASC. The CECOM Rapid
Response (R2) multiple-award contract consisted of eight separate indefinite-delivery,
indefinite-quantity awards. CECOM competes requirements for a broad range of services
as task orders among the eight multiple-award contracts. The ASC Consolidated
Acquisition of Professional Services (CAPS) multiple-award contracts provided a wide
range of acquisition disciplines and specialties and consisted of nine indefinite-delivery,
indefinite-quantity awards. ACC and ASC each awarded one advisory and assistance
services task order under the CECOM R2 multiple-award contract, and ASC awarded


                                              1

 two advisory and assistance services task orders under the CAPS multiple-award
 contract.

 Contract Actions Reviewed (U)
 (U) We reviewed four task orders for advisory and assistance services supporting
 CSAR-X, awarded from FY 2006 through FY 2009, totaling $32.7 million. The task
 orders were issued under CECOM and ASC multiple-award contracts for contractor
 personnel requirements at the ACC CSAR Requirements Office (ACC/ A8R) located at
 Langley Air Force Base, Virginia, and the ASC CSAR-X Program Office located in the
 303 rd Aeronautical Systems Wing (303 AESW) at Wright Patterson Air Force Base,
 Ohio. Table I provides a breakdown of the contracts and task orders reviewed. See
 Appendix B for a summary of task order deficiencies and Appendix C for further
 discussion on the specifics of each of the four task orders.

                              Table 1. Contract Actions Reviewed (U)
 Requiring                    Contracting           Contract/Task Order                      Estimated 

 Activity(U) 
                Activity (U)              Number(U)                            Value(U)
1 ACC/A8R                 1 CECOM             1 DAAB07-03-D-BOIO/0138                1        $24,843,545
1 303 AESW                1 CECOM             1 DAAB07-03-D-B006/0187                1          3,000,000
1 303 AESW                1 ASC               1 FA8622-06-D-8509/0031                1          2,ll4,882
1 303 AESW                1 ASC               1 FA8622-06-D-8506/0 I 03              1          2,778,407
1       Total             1                   1                                      1        $32,736,834



 CSAR-X Program Status (U)
 (U) In the April 6, 2009, speech, "Defense Budget Recommendation Statement," the
 Secretary of Defense announced key decisions with respect to the DOD FY 2010 budget,
 including decisions regarding the CSAR-X helicopter program. The Secretary stated
 that:

                  (U) We will tenninate the Air Force Combat Search and Rescue X
                  CCSAR-X) helicopter program.           This program has a troubled
                  acquisition history and raises the fundamental question of whether this
                  important mission can only be accomplished by yet another single­
                  service solution with single-purpose aircraft. We will take a fresh look
                  at the requirement behind this program and develop a more sustainable
                  approach.'




 , (U) DOD, Office of the Assistant Secretary of Defense (public Affairs). On the Web:
 http://www.defenselink.millspeeches/speech. aspx?speechid~ 1341.


                                                     2

Criteria (U)
Advisory and Assistance Services (U)
(U) FAR Part 2, "Definition of Words and Tenns," defines advisory and assistance
services as:
               (U) Those services provided under contract by nongovernmental
               sources to support or improve: Organizational policy development;
               decision-making; management and administration; program and/or
               project management and administration; or R&D [Research and
               Development] activities. It can also mean the furnishing of professional
               advice or assistance rendered to improve the effectiveness of Federal
               management processes or procedures (including those of an
               engineering or technical nature).

Competition in Contracting Act (U)
(U) The Competition in Contracting Act is implemented in section 2304, title 10, United
States Code (10 U.S.C. 2304). When conducting procurement for property or services,
10 U.S.C. 2304 states that the agency shall obtain full and open competition through the
use of competitive procedures in accordance with the requirements of this chapter and the
FAR.

Price Reasonableness Determination (U)
(U) The FAR requires that contracting officers purchase supplies and services from
responsible sources at fair and reasonable prices. The tools used for detennining the
price reasonableness of a service contract include independent government cost estimates
(IGCEs), technical evaluations of labor hours and labor mix, and price negotiation
memoranda.

Review of Internal Controls (U)
(U) DOD Instruction 5010.40, "Managers' Internal Control (MIC) Program Procedures,"
January 4, 2006, require DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for ACC, ASC, and CECOM. Specifically, internal controls were not in
place to ensure that contractors, providing services under multiple-award contracts, are
provided sufficient time to respond to task order solicitations; that IGCEs and price
reasonableness decisions were supported; that adequate contractor surveillance was
perfonned on advisory and assistance services task orders; and that contractors do not
perform inherently governmental functions. Implementing the recommendations in
Findings A and B will improve internal control deficiencies identified in this report. We
will provide a copy of the final report to the senior official(s) responsible for internal
controls in the Anny and Air Force.




                                                  3

Finding A. Award and Administration of
Advisory and Assistance Services Contracts
(U)
(U) Air Force program and contracting officials and CECOM contracting officials did not
obtain competition or otherwise ensure that prices were fair and reasonable when
awarding four advisory and assistance services task orders supporting the CSAR-X
program. In addition, contracting officials did not adequately oversee the four task
orders. This occurred because these officials did not comply with FAR and DF ARS
requirements when awarding and administering these task orders. Specifically on all four
task orders officials:

   • 	 (U) circumvented fair opportunity to be considered for award by unduly limiting
       time for contractors to respond,
   • 	 (U) did not prepare adequate IGCEs,
   • 	 (U) performed inadequate price and technical analyses, and
   • 	 (U) did not establish appropriate contractor surveillance plans or conduct 

       sufficient surveillance. 


(U) As a result, the Air Force has no assurance it obtained the best value or that the
contractors performed effectively or efficiently on the task orders valued at $32.7 million.

Task Orders Reviewed (U)
(U) Air Force and CECOM officials circumvented fair opportunity by limiting the
amount of time contractors had to submit bids for task orders, prepared inadequate
IGCEs, performed inadequate price and technical analyses, and performed inadequate
contractor surveillance.

Fair Opportunity to Submit Bids for Task Orders (U)
(U) For each of the task orders issued under multiple-award contracts, Air Force and
CECOM contracting officials did not provide contractors with a fair opportunity to
submit bids. For three of these orders, the sole bidder and awardee was the incumbent
contractor. FAR 16.505(b)(1 )(iii), "Ordering," requires contracting officers to consider
the amount of time contractors need to make informed business decisions on whether to
respond to potential orders. Limiting the amount of time contractors are allowed to make
informed business decisions denies fair opportunity and limits competition.
(FSUS) On September 13, 2006, CECOM awarded task order 0138 to Lear Siegler Inc.
(LSI) for contractor services performed at ACC, Langley Air Force Base. Although the
scope of work outlined in the performance work statement was complex, the contracting
officer only allowed the contractors I business day to indicate their intention to respond
to the proposed task order, and 5 business days to      . a task execution         . Only

                                                                                   and is


                                             4

                                                     The task order period of
performance included one 4-month base period and 4 option years. The task order had a
potential ceiling value of $24.8 million. The purpose of the task order was to provide
services to support:
       •   (U) management and process planning,
       •   (U) acquisition subject matter expertise,
       •   (U) system engineering,
       •   (U) military operations analysis,
       •   (U) modeling and simulation support,
       •   (U) technical writing and editing, and
       •   (U) information technology support.
(U) According to the contracting officer's technical representative for this task order, the
short response time afforded contractors on this task order to submit proposals was
consistent with the goal of the R2 contract of awarding task orders quickly. For task
orders 0103, 0031, and 0187, contractors were allowed 3 to 5 business days to submit
proposals. On task orders 0103 and 0031, only incumbent contractors submitted
proposals.

Independent Government Cost Estimates (U)
(U) The Air Force developed incomplete and inadequate IGCEs for the four advisory and
assistance services task orders supporting the combat search and rescue mission. For all
four task orders, estimates consisted of a combination of labor rates, categories, hours, or
total costs with no explanation of how estimates were developed. FAR 15.406-1(a),
"Prenegotiation Objectives," states that contracting officials should establish the
Government's initial negotiation position with the use of various analyses and techniques
including the IGCE. The information gathered should assist contracting officials in
deciding the fairness and reasonableness of proposals received from contractors. See
Table 2 for a cost comparison between the independent government cost estimates and
contractor proposal.

               Table 2. Independent Government Cost Estimate versus 

                              Contractor Proposal (U) 

                                                  ~--------------
    Task Order                IGCE (U)            Contractor Proposal         Difference 

    Number(U)                                          (FEll"IEI)              (FElUEI) 

        0138                 $21,100,000 

        0187                 $3,000,000 

        0031                 $2,123,780 

        0103                 $2,884,554 





                                              5
                              Ffilft filFFlf"IAT, lJllFl film N
([9U9) On task order 0138, dated August 8,2006, the IGCE totaled $21.1 million.
Although the IGCE contained various labor categories, labor rates, and applicable hours,
the estimate did not summarize the                  used to determine the             labor
ca1:eg'Jri,~s and hours.
                                      A September 5, 2006, technical evaluation that the
chief for CSAR-X requirements performed stated that the IGCE did not factor in prime
contractor labor, material, travel cost, Secure Internet Protocol Router capability, or
various computer hardware system pieces. However, the requirements chief considered
the proposed costs fair and reasonable without performing an analysis of the contractor's
proposed costs. The IGCE for task orders 0103 and 0031 were undated and unsigned and
also lacked specific detail as to the methodology employed to arrive at the required hours.
Both estimates appeared to be based on the contractor proposals, not on a detailed
Government analysis. In all these cases, prices were accepted as proposed.

Price Reasonableness Decisions (U)
([QUQ) Contracting officials did not conduct adequate price reasonableness
determinations for the four task orders reviewed and program officials did not adequately
document and support that the prices paid were fair and reasonable. FAR 15.404-1,
"Proposal Analysis Techniques," states that the objective of proposal analysis is to ensure
that the final agreed-to price is fair and reasonable and states that the contracting officer
is responsible for evaluating the reasonableness of offered prices. Even when fair
opportunity is provided and only one offer is received,                 officials must be
~"'-!l!f!!.!l!; of their           to obtain reasonable

                  The determination of price reasonableness that the contrac~cer
           Se]ptemtler 12, 2006, stated the other direct costs included all o f _
                labor costs and that $1.59 million in material and travel costs were
sufficiently broken down in the proposal to be considered fair and reasonable. Merely
stating that all subcontractor labor costs are included and other costs are sufficiently
broken down does not provide due diligence that prices are reasonable. In addition, a
September 5, 2006, CSAR-X requirements chief's price/cost evaluation did not describe
the methodology employed, or analysis performed, when determining the various labor
categories, hours, travel, and proposed material costs used to determine price
reasonableness.

Contractor Surveillance (U)
(U) Air Force officials performed inadequate contractor surveillance on the four advisory
and assistance task orders supporting CSAR-X that we reviewed. FAR Subpart 46.4,
"Government Contract Quality Assurance," states that a quality assurance plan should be
prepared in conjunction with preparation of the statement of work, should specify all
work requiring surveillance, and the method of surveillance. It also requires the
Government to conduct quality assurance to ensure the contractor is performing in
accordance with the statement of work. In addition, Defense Federal Acquisition Regulation
Supplement (DF ARS) Subpart 201.6, "Career Development, Contracting Authority, and
Responsibilities," requires contracting officers to assign in writing a qualified representative
to assist in monitoring the administration and technical aspects of the contract. Surveillance



                                               6
                               Ffilft filFFlf"IAT, lJllFl film N
of contractor perfonnance and cost is essential to protect the interests of the Government.
Although contracting officer representatives were designated in writing, their surveillance
consisted primarily of a review of contractor invoices and contractor-generated status reports.
Surveillance plans had not been developed to ensure that time and materials billed to the
Government were accurate and reasonable for each tasking. Because these are
time-and-materials task orders, the Air Force reimburses the contractor based on the actual
cost of materials, travel, and direct labor hours at specified fixed hourly rates that include
wages, indirect costs, and profit. Therefore these task orders require appropriate Government
oversight to ensure the contractor is perfonning efficiently.

Contract Competition Environment (U)
(U) By not providing all contractors sufficient time to respond to requests for proposals
under multiple-award contracts, contracting officers created an environment where
incumbent contractors were more likely to submit proposals. By not fostering a
competitive environment in which all potential contractors were provided a fair
opportunity to compete under multiple-award contracts, contracting officers may not
obtain competitive prices for services. Also, since CSAR-X program officials did not
adequately support price reasonableness decisions, there is no assurance that prices paid
for CSAR advisory and assistance services were fair and reasonable.

Obtaining Best Value for CSAR-X Services (U)
(U) The Air Force has no assurance it obtained the best value for advisory and assistance
services in support of the combat search and rescue mission, and no assurance that
contractors are performing efficiently or effectively. The Air Force relies on the use of
advisory and assistance services contracts to support current and future combat search
and rescue operations. To ensure it obtains the best value for these services, the Air
Force must create a competitive environment in which qualified contractors are
encouraged to bid on each task order under multiple-award contracts. To ensure
reasonable prices are obtained, IGCEs and price reasonable decisions need to be
supportable and reflect the level of effort required under each task order. In addition,
increasing contract oversight and reporting of contractor performance for each of the four
combat search and rescue advisory and assistance task orders and obtaining an incurred
cost audit from the Defense Contract Audit Agency on the largest dollar task order
reviewed (task order 0138) will reduce contract risk and ensure that the Air Force pays
only for the contracted services performed.

Management Comments on the Finding and Our
Response (U)
Army Comments (U)
(U) The Executive Director, CECOM Contracting Center, Army Contracting Command,
provided comments on the report finding regarding price reasonableness determinations
for task orders 0187 and 0138. Specifically, for task order 0187, the executive director
stated that because two proposals were received, price competition established price
reasonableness for this task order. In addition to price competition, the acting executive



                                               7

director stated that the contract specialist compared the proposed rates to those currently
on contract and found them to be identical. The contract specialist also compared
subcontractor pricing to prime rates of similar labor categories already on contract to
establish price reasonableness. On task order 0138, the executive director stated price
reasonableness was also established through price competition along with a similar
review of proposed labor rates. The executive director did agree that travel and material
under other direct costs should have been more properly analyzed and stated that the
CECOM Contracting Center will ensure that future price reasonableness decisions would
properly consider all other direct costs.

Our Response (U)
(U) FAR 15.404-1, "Proposal Analysis Techniques," states that the objective of proposal
analysis is to ensure that the final agreed-to price is fair and reasonable and states that the
contracting officer is responsible for evaluating the reasonableness of offered prices.
Even when fair opportunity is provided and only one offer is received, contracting
officials must be cognizant of their responsibility to obtain reasonable prices. On task
order 0187, only one reasonable offer was received, and on task order 0138, only one
offer was received. Because limited competition was obtained on both task orders, even
more scrutiny should be applied to each proposal when making price reasonableness
decisions. By only comparing proposed rates with those established in the R2
multiple-award contract, contracting officials made incomplete and inadequate price
reasonableness determinations for task orders 0187 and 0138. Without verifying the
proposed labor categories and proposed hours per labor category are reasonable,
contracting officials cannot ensure that the overall price is reasonable.

Air Force Comments (U)
(U) The Deputy Assistant Secretary for Acquisition Integration, Office of the Assistant
Secretary for the Air Force for Acquisition, stated the information provided in the report
did not support the finding that only incumbent contractors were likely to submit
proposals.

Our Response (U)
(U) As discussed in this report, for three of the four task orders reviewed, the sole bidder
and awardee was the incumbent contractor. We believe by not providing all contractors
sufficient time to respond to requests for proposals under multiple-award contracts,
contracting officers created an environment where incumbent contractors were more
likely to submit proposals.

Recommendations, Management Comments, and Our
Response (U)
Revised Recommendation (U)
(U) As a result of management comments, we revised draft report Recommendation A.l,
which required the Commanders, Aeronautical Systems Center and U.S. Army
Communications and Electronics Command, to request that the Director, Defense


                                               8

Procurement and Acquisition Policy, establish reasonable solicitation response time
frames.

(U) A.1. We recommend that the Commanders, Aeronautical Systems Center and
U.S. Army Communications and Electronics Command, request that their
respective Service Acquisition Executives establish reasonable solicitation response
time frames.

Army Comments (U)
(U) The Executive Director, CECOM Contracting Center, Army Contracting Command,
disagreed and stated each solicitation needs to establish response times that are
reasonable for the specific effort, and did not agree that the Director, Defense
Procurement, needs to establish reasonable response time frames for each multiple-award
task order. In addition, the executive director stated that FAR Part 16.505(b)(1)(ii)
allows broad discretion to the contracting officer to determine appropriate ordering
procedures.

Our Response (U)
(U) The Army comments are not responsive. Although FAR Part 16.505(b )(1) allows
broad discretion to the contracting officer to determine appropriate ordering procedures,
it also states contracting officers should consider the amount of time contractors need to
make informed business decisions on whether to respond to potential orders when
developing ordering procedures. We do not believe that contractors can make informed
business decisions when asked to indicate their intention to respond to a task order within
1 business day, and provide a proposal within 5 business days on a task order valued at
more than $24 million. We request that the executive director reconsider his position on
establishing reasonable solicitation response time frames.

Air Force Comments (U)
(U) The Deputy Assistant Secretary for Acquisition Integration, Office of the Assistant
Secretary for the Air Force for Acquisition (Deputy Assistant Secretary), partially agreed
with our draft report recommendation and provided comments from the Aeronautical
Systems Command and the Air Staff. The Deputy Assistant Secretary stated that it
would be difficult for the Director, Defense Procurement and Acquisition Policy, to
establish time frames for all solicitations, but agreed that minimum time lines are
necessary to ensure fair opportunity to submit bids for all competitors. The Deputy
Assistant Secretary also stated that to ensure reasonable solicitation time frames are
applied to the Consolidated Acquisition of Professional Services (CAPS) contracts on a
case-by-case basis, the Director, Acquisition Excellence, ASC, issued guidance detailing
mandatory time frames based on dollar value and complexity of potential acquisitions on
December 17, 2009.

Our Response (U)
(U) The Deputy Assistant Secretary comments were responsive and no further comments
are required.


                                             9

(U) A.2. We recommend that the Commanders, Air Combat Command and
Aeronautical Systems Center, instruct contracting officials to:
       (U) 	a. Document and fully support the methodology used to prepare
           independent government cost estimates.
       (U) b. Document and support price reasonableness determinations.

Air Force Comments (U)
(U) The Deputy Assistant Secretary agreed with the intent of Recommendations A.2.a
and A.2.b, noting that guidance was being developed that requires all CAPS program
estimates be signed, dated, and the methodology used to develop the estimate be
explained. Further, he noted that no solicitation may be released until an appropriately
documented and signed estimate was provided. ASC issued guidance on December 1,
2009, regarding independent government cost estimates. The Deputy Assistant Secretary
also noted that the U.S. Army CECOM contracting office awarded the contract and was
responsible for reviewing and requesting refinement of information ACC provided to
adequately evaluate the reasonableness of the final proposed price. Subsequent
documentation of that decision was within the U. S. Army CECOM organization, not
ACC.

Our Response (U)
(U) The Deputy Assistant Secretary comments were partially responsive to
Recommendations A.2.a and A.2.b. As the requiring activity, ACC is required to
develop independent government cost estimates in accordance with "Air Force Purchases
Using Military Interdepartmental Purchase Requests," August 2007. The ACC CSAR
requirements office had obtained similar services under existing Air Force contract
vehicles since 1995 and was best positioned to document and support the methodology
used to prepare independent government cost estimates and support price reasonableness
determinations. Thus we request the Commander, ACC, to provide a response to the
final report specifying what action ACC will take to ensure independent government cost
estimates and price reasonableness determinations are fully supported.

       (U) c. Prepare quality assurance surveillance plans that specify the work that
           requires surveillance and the type of surveillance to be performed.

Air Force Comments (U)
(U) The Deputy Assistant Secretary agreed with the intent of the recommendation, noting
that the surveillance plans should not be the prime focus of ensuring inherently
governmental duties are not being performed by contractors. Specifically, he commented
that this was the responsibility of the contracting officer to ensure contract duties being
requested are not inherently governmental. The Deputy Assistant Secretary also noted
ASC agreed with the recommendation, and as a part of the CAPS program's initiative to
establish a robust and disciplined oversight and surveillance program, it will be necessary
to review and revise current policies on quality assurance plans and the type of
surveillance performed under CAPS task orders. Policies will better focus on ensuring
plans adequately detail work requiring surveillance and the methods to be employed. The


                                            10 

estimated completion date for CAPS is June 1,2010. The Deputy Assistant Secretary
commented that ACC had agreed to work with U.S. Army CECOM to refine the existing
quality assurance surveillance and performance plans. Additionally, ACC will work with
the ACC Quality Assurance Division on any future service contracts. The Deputy
Assistant Secretary stated that the estimated completion date for ACC was November 30,
2009.

Our Response (U)
(U) The Deputy Assistant Secretary comments were responsive however planned actions
had not been completed as stated. We request that the Deputy Assistant Secretary
provide verification or a date when the recommended action will be completed.

(U) A.3. We recommend the Commander, U.S. Army Communications and
Electronics Command, request the Defense Contract Audit Agency perform an
incurred cost audit for task order 0138.

Army Comments (U)
(U) The Executive Director, CECOM Contracting Center, Army Contracting Command,
agreed with the recommendation and stated the contracting officer for contract
DAAB07-03-D-B006 would request an incurred cost audit for task order 0138 no later
than December 7, 2009.

Our Response (U)
(U) The executive director's comments were responsive; however, in subsequent
discussions CECOM management stated the contracting officer would not request an
incurred cost audit for this task order until performance was complete. We request that
the Executive Director, CECOM Contracting Center, provide verification or a date when
the recommended action will be completed.




                                           II 

Finding B. Contractor Performance of
Inherently Governmental Functions (U)
(U) Air Force and CECOM contracting officials did not ensure that they retained full
responsibility for inherently governmental functions associated with one advisory and
assistance services task order. In addition, three task orders supporting the combat search
and rescue mission included indicators of personal services. Specifically, officials
permitted contractors to perform potentially inherently governmental functions and
personal services by allowing:

     •	   (U) contracted services to exceed a period of I year;
     •	   (U) all contractor performance to be completed on site;
     •	   (U) principal tools, space, and equipment to be provided by the Government; and
     •	   (U) contractor employees to perform services under working conditions that
          were indistinguishable from Government personnel.

(U) These conditions occurred because Air Force and CECOM contracting offices did not
comply with the FAR and lacked policies and procedures to make sure that contracting
officers correctly administer task orders and provide adequate contract oversight to
ensure that contractors are not performing inherently governmental functions or
providing personal services. As a result, ASC and CECOM contracting officers did not
protect the best interest of the Government on $32.7 million in advisory and assistance
services task orders supporting the combat search and rescue mission and did not
determine whether Government employees could have performed these functions more
cost effectively.

Inherently Governmental and Personal Services Criteria
(U)
(U) The FAR is the primary regulation all Federal Executive agencies use in the
acquisition of supplies and services. Specifically, the FAR provides the following
guidance for inherently governmental functions and personal services:

   • 	 (U) FAR 2.10 I, "Definitions," states that an inherently governmental function is a
       function that is so intimately related to public interest as to mandate performance
       by Government employees. These functions include those activities that require
       either the exercise of discretion in applying Government authority or making of
       value judgments in making decisions for the Government.
   • 	 (U) FAR 7.5, "Inherently Governmental Functions," provides examples of
       inherently governmental functions, and functions that are not inherently
       governmental but have the potential of becoming inherently governmental
       depending on the nature of the function. Additionally, there should be written
       documentation stating that none of the functions to be performed are inherently
       governmental.



                                            12
   • 	 (U) FAR 37.104, "Personal Services Contracts," states that personal services
       contracts are defined by the employer-employee relationship created between the
       Government and the contractor's personnel. Additionally, greater scrutiny and an
       enhanced degree of management oversight is exercised when contracting for
       functions that are not inherently governmental but closely support the
       performance of inherently governmental functions.
   • 	 (U) FAR 37.114, "Special Acquisition Requirements," states that contractors
       working in situations where their contractor status is not obvious to third parties
       are required to identify themselves as contractors.

Insourcing Contracted Services (U)
(U) Section 324 of Public Law llO-181, "National Defense Authorization Act for Fiscal
Year 2008," January 28, 2008, requires the Under Secretary of Defense for Personnel and
Readiness "devise and implement guidelines and procedures to ensure that consideration
is given to using, on a regular basis, Department of Defense civilian employees to
perform new functions and functions that are performed by contractors and could be
provided by Department of Defense civilian employees." The guideline also provides for
"special consideration to be given to using Department of Defense civilian employees to
perform any function that is closely associated with the performance of an inherently
governmental function."

(U) Deputy Secretary of Defense memorandum, "In-sourcing Contracted Services ­
Implementation Guidance," May 28, 2009, emphasizes existing DOD policies, statutes,
and procedures. The insourcing implementation guidance defines insourcing as the
conversion of any currently contracted service or function to DOD civilian or military
performance, or combination. Insourcing actions include the conversion of contracted
functions considered inherently governmental. Specifically:

   • 	 (U) Officials should develop an insourcing plan and designated insourcing
       program officials should consider the types of services performed and the ratio of
       contract support to in-house performance within various functional areas;
   • 	 (U) Requiring officials, contracting officials, contracting officers representatives,
       and contracting officer technical representatives should work together to prioritize
       contracted services for insourcing; and
   • 	 (U) The requiring official must provide the contracting officer with a written
       determination that functions performed are not inherently governmental and will
       not violate provisions of the FAR on contracting for personal services.

Inherently Governmental Functions (U)
(U) FAR 2.10 1 identifies inherently governmental functions as functions so intimately
related to public interest as to mandate performance by Government employees. ASC
contracting and quality assurance personnel allowed contractor employees to perform
inherently governmental functions for contract FA8622-06-D-8509, task order 003l.




                                            13 

Specifically, between October and November 2008, task order 0031 contractor
Acquisition Management duties included:
    • 	 (U) reviewing a DOD Inspector General (IG) draft report on the CSAR-X
        requirements development process, and
    • 	 (U) providing comments on the report to the Air Force to support an Air Force
        response to the draft report.

(U) According to contractor-submitted status reports, these duties helped to ensure that
the DOD IG final report to Congress was complete, accurate, and defendable. However,
the referenced draft report, issued October 31, 2008, contained warnings advising that
distribution of the proposed report outside DOD is not authorized. There must be
safeguards preventing publication or improper disclosure of the information in the
report. FAR 7.503, "Policy," states that contracts should not be used for the
performance of inherently governmental functions, and FAR 7.503(c) (20) states that
"the drafting of ... agency responses to audit reports from the Inspector General" is an
inherently governmental function. The use of contractor personnel to support the
response to the IG audit report specifically contradicted FAR 7.5 examples offunctions
considered inherently governmental.

Personal Services Contracts (U)
(U) FAR 37.104 identifies a personal services contract by the employer-employee
relationship established between Government and contractor personnel. This relationship
occurs when a Government employee provides continuous supervision of subcontractor
personnel. The Government is normally required to obtain its employees by direct hire
under competitive appointment or other procedures under civil service laws. Awarding
personal services contracts is prohibited unless a specific statute authorizes the
acquisition.

(U) In addition, when assessing whether a proposed contract is personal in nature, the
FAR provides the following descriptive elements as potential indicators of personal
services contracts:
   • 	 (U) performance on site;
   • 	 (U) principal tools and equipment furnished by the Government;
   • 	 (U) the need for the type of service provided can reasonably be expected to last
       beyond 1 year; and
   • 	 (U) inherent nature of the service, or manner in which provided, reasonably
       requires direct or indirect Government supervision of contractor employees.

(U) Of the four task orders reviewed, three task orders contained contract requirements
that indicate the potential presence of personal services. Specifically, Government
employees exercised continuous supervision over contractors performing services on task
orders 0138, 0187, and 0031. Government employees located at the CSAR-X program
office reviewed contractor work daily, and reported unsatisfactory and exceptional



                                            14 

 perfonnance to the Quality Assurance Personnel and Government Task Leads.
 Additionally, Government employees located at ASC and ACC maintained
 communications with all contractors, perfonned contractor perfonnance assessments,
 validated contractor invoices, approved travel requests, and provided day-to-day
 oversight and inspections to verify that contractors complied with technical requirements.

 (U)Additionally, task orders 0138 and 0187 dictated contractor use of Government­
 furnished working space and equipment for perfonning contracted services on site at
 Wright Patterson Air Force Base and Langley Air Force Base. These two task orders also
 provided contracted services that exceeded I year. The period of perfonnance for
 contract DAAB07-03-D-BOIO, task order 0138 included a 4-month base period with four
 I-year option periods. The period ofperfonnance for contract DAAB07-03-D-B006,
 task order 0187 was for 48 months from contract award.

 (U) Finally, on contract FA8622-06-D-8509, task order 0031, Innovative Technologies
 Corporation consistently reported among its recurring administrative support duties the
 management of a CSAR-X morale fund to include providing flowers and farewell
 mementos to both Government and contractor personnel. According to contractor­
 prepared status reports, the fund helped maintain a positive perspective for personnel
 working in the CSAR-X program office and enhanced relationships within the
 organization. We believe the contractor's management of the CSAR-X morale fund is an
 unallowable contracted personal service.

 Contractor Personnel (U)
 (U) Of the four task orders reviewed, one task order supported work perfonned at
 Headquarters, ACC, and three task orders supported work perfonned at ASC. The table
 below identifies the contracts reviewed, the total number of current Government and
 contractor personnel at each ACC or ASC office supported, the total number of
 contractor staff assigned to each contract task order, and the percentage of contractor staff
 to total personnel associated with each task order.

                              Table 3. Contractor Personnel (U)
    Contract and Task           Location of       Total          Total                    Contractor
    Order Number (U)           Performance    Government       Contractor                Personnel as
                                    (U)            and        Personnel at               a Percentage
                                               Contractor     Location (U)                  of Total
                                              Personnel at                                 Personnel
                                              Location (U)                                    (U)
I DAAB07-03-D-BOIO/0138       I ACC/A8R         I       38         I       17        I       45
I DAAB07-03-D-B006/0187       I ASC             I       59*        I        3        I           5
I FA8622-06-D-8509/0031       I ASC             I       59*        I       12        I        20
I FA8622-06-D-8506/0103       I ASC             I       59*        I        4        I           7

 * (U) There are 59 total personnel located at the Aeronautical Systems Command CSAR-X program
 office, who provide combat search and rescue support for the CSAR-X program.




                                                 IS
(U) Section 2463, title 10, United States Code, requires the Under Secretary of Defense
for Personnel and Readiness to develop guidelines and procedures to ensure that
consideration is given to DOD civilian employees to perform new functions or functions
currently performed by contractors. Additionally, Deputy Secretary of Defense
memorandum, "In-sourcing Contracted Services-Implementation Guidance," states that
insourcing is the conversion of any currently contracted services and functions to DOD
civilian or military personnel. Insourcing actions include the conversion of contractor
employees performing functions considered inherently goverrnnental. Additionally,
officials should develop an insourcing plan and designated insourcing program officials
should consider the types of services performed and the ratio of contract support to in­
house performance within various functional areas.

(U) ACC, Directorate of Requirements, contractor personnel accounted for 17 of 38, or
45 percent, total personnel positions providing services at the Directorate of
Requirements office. ASC CSAR-X program office contractor personnel accounted for
19 of 59, or 32 percent, of the total personnel positions providing services at the CSAR-X
program office. Since contractor personnel currently provide services that directly apply
to the combat search and rescue mission, we believe that this mission should be subject to
the requirements of 10 U.S.C. 2463 and the Deputy Secretary of Defense memorandum,
"In-sourcing Contracted Services-Implementation Guidance."

Contractor Identification (U)
(U) FAR 37.114 states that contractors working in situations where their contractor status
is not obvious to third parties are required to identify themselves as contractors.
Additionally, agencies must ensure that all contractor personnel attending meetings,
answering Government telephones, and working in other situations where their contractor
status is not obvious, must identify themselves.

(U) Contractors located at the ASC CSAR-X program office are organized in a functional
manner, separating the acquisition, technical, financial, and contract divisions.
Contractor employees work within each section and are intermingled with civilian and
military employees; however, they are readily identifiable. Each contractor's workspace
identifies the contractor with a sign specifying the contractor's name and company.
Additionally, contractor personnel are required to identify themselves as contractors
when answering the telephone at the CSAR-X program office.

(U) However, contractors located at the ACC CSAR requirements office are not readily
identifiable. Contractors are colocated in the same space with Government employees
and Government supervisors. The Government organization chart and telephone roster
list both civilian and military employees and contractor personnel together under
assigned DOD system telephone numbers. There is nothing to distinguish Government
employees from contractor personnel. As a result, outside visitors or callers to the ACC
CSAR requirements office cannot readily identify contractor personnel from
civilian/military employees. Additionally, our visual inspection of the ACC CSAR
requirements office space verified that contractors do not wear identification or have
work stations that identify them as contractor personnel. As a result, contractor status is


                                             16 

not obvious to third parties and thus contractor personnel may create the impression of
being Govermnent employees with the ability to fully represent the Govermnent.

Contractor Oversight (U)
(U) FAR Part 7.5 states that there should be written documentation that no functions to be
performed will be inherently govermnental. Additionally, FAR 37.104 states that
awarding personal services contracts is prohibited. Of the four task orders reviewed, task
orders 0138 and 0187 included contracting officer-approved memoranda for the record
stating that support services required were not for personal services. However, there was
no written documentation stating that performance of contractor functions was not
inherently governmental, as required by the FAR. Task orders 0103 and 0031 included
contracting officer-approved documentation stating that support required for this task
order was not inherently governmental. Even though each task order contained
contracting officer-approved documentation stating that contract services were either not
inherently governmental or for personal services, contracting officers still allowed
contractors to perform inherently governmental functions and personal services.

(U) FAR Part 37.1 states that the contracting officer is responsible for ensuring that a
proposed contract for services is proper and agencies shall not award a contract for the
performance of inherently governmental functions or personal services. FAR 37.114
states that an enhanced degree of management oversight should be exercised when
contracting for functions that are not inherently governmental but closely support the
performance of inherently governmental functions. Of the four task orders reviewed, task
orders 0138 and 0187 followed the CECOM R2 surveillance plan that provided the
contracting officer with procedures required to accurately monitor the performance of the
CECOM multiple-award task order support contracts. Additionally, task order 0138
followed a supplementary R2 surveillance plan that established procedures for
monitoring, reporting, and evaluating the performance of the contractor. However,
neither surveillance plan contained specific contract oversight provisions to discourage or
prevent Government personnel from tasking contractors with inherently govermnental
functions or providing personal services. The remaining two task orders, 0031 and 0103,
followed Performance Management Plans that provide guidance on assessing,
documenting, and managing contractor performance. However, those plans also did not
contain specific contract oversight provisions to discourage or prevent Govermnent
personnel from tasking contractors with inherently governmental functions or providing
personal services.

(U) Since ASC and CECOM contracting officers allowed contractors to perform
inherently governmental functions and personal services, we believe that the contracting
officers did not exercise a sufficient degree of management oversight over functions that
supported the combat search and rescue mission. As a result, ASC and CECOM
contracting officers did not protect the best interest of the Government when contracting
and providing contract oversight on advisory and assistance services task orders
supporting the combat search and rescue mission.




                                            17 

Government's Best Interest (U)
(U) Air Force and CECOM contracting offices lack internal controls to make certain that
contracting officers correctly administer task orders and provide adequate contract
oversight to ensure that the contractor is not performing inherently governmental
functions or providing personal services. The Air Force contracting and quality
assurance personnel allowed contractors to perform inherently governmental functions on
one task order, and we found indicators of personal services associated with three of the
four task orders reviewed. In these examples, we found minimal evidence of
Government oversight due to the lack of Air Force and CECOM internal controls and
standard operating procedures, which help prevent the performance of inherently
governmental functions and personal services by contractor personnel. As a result, ASC
and CECOM contracting officers did not protect the best interest of the Government on
$32.7 million in advisory and assistance services task orders supporting the combat
search and rescue mission and did not determine whether Government employees could
have performed these functions more cost effectively.

Management Comments on the Finding and Our
Response (U)
(U) The Deputy Assistant Secretary for Acquisition Integration, Office of the Assistant
Secretary for the Air Force for Acquisition (Deputy Assistant Secretary), stated he was
concerned with the premise of the finding regarding personal services contracts. He
believed that the fact that these task orders have contractors who perform on site, are
provided Government-furnished tools and equipment, or that services provided may last
beyond 1 year did not mean the contractors were performing personal services.

Our Response (U)
(U) The FAR provides various descriptive elements as potential indicators of personal
services contracts. Of the four task orders reviewed, three task orders contained contract
requirements detailed in the FAR that indicate the potential presence of personal services.
The intent of this finding and recommendation was to ensure proper safeguards are in
place to discourage and prevent Government personnel from tasking contractors with the
performance of inherently governmental functions and personal services.

Recommendations, Management Comments, and Our
Response (U)
Revised and Renumbered Recommendations (U)
(U) As a result of Air Force comments to recommendations in a draft of this report, we
renumbered Recommendation B. 2. a as B. 2. We revised and renumbered the draft report
Recommendation B.2.b as Recommendation B.3 to apply only to the Commander,
Aeronautical Systems Center, in the final report. We also renumbered
Recommendation B.3 as B.4.




                                            18 

(U) B.t. We recommend that the Commander, Air Combat Command;
Commander, Aeronautical Systems Center; and the Commander, U.S. Army
Communications and Electronics Command, develop policies and procedures
detailing specific contract oversight requirements to discourage and prevent
Government personnel from tasking contractors with the performance of inherently
governmental functions and personal services.

Army Comments (U)
(U) The Executive Director, CECOM Contracting Center, Army Contracting Command,
partially agreed with the recommendation. The executive director stated that, to his
knowledge, no inherently governmental functions have been performed under the
CECOM task orders. In addition, the executive director stated that CECOM does have a
contracting officer's representative (COR) contracting handbook, which reiterates the
policies and procedures for the COR, including reporting the prompt reporting of
suspected procurement fraud, bribes, and conflicts of interest. However, the Command
recognizes the need for further clarification in the guidance for the COR to ensure that
contractors are performing within the statement of work on contract and no inherently
governmental functions and personal services are performed. The executive director
stated the CECOM Contracting Center will amend the COR handbook to reemphasize the
need for oversight that will prevent the rendering of services considered to be inherently
governmental functions or personal services in nature. Also the COR handbook would be
revised to require that surveillance plans specifically address this issue. The executive
director estimated the guidance would be completed by December 1, 2009.

Our Response (U)
(U) The executive director's comments were responsive to Recommendation B.l.
However, the Army was not able to provide us with validation that the COR handbook
had been revised to address inherently governmental functions or personal services. We
request that the executive director provide such verification or provide a specific date as
to when the recommended action will be completed.

Air Force Comments (U)
(U) The Deputy Assistant Secretary, agreed with the recommendation. The Deputy
Assistant Secretary stated that the CAPS program office was overhauling its oversight
and surveillance requirements and when completed would provide training to its
customers. The goal of the new oversight program was to create a robust and disciplined
process to ensure compliance with contract, regulatory, and statutory requirements. This
process will be fully up and running no later than June 1,2010. The deputy also stated
that as of August 3, 2009, ACC had continuously reinforced the FAR requirements for
support contractors to be clearly identified and posted signage outside each cubicle to
assist visitors with this identification as well.

Our Response (U)
(U) The Deputy Assistant Secretary comments were responsive and no further comments
are required.



                                             19
(U) B.2. We recommend that the Commanders, Air Combat Command and
Aeronautical Systems Center, identify, within 60 days from the date of the fmal
report, which contractor positions should be converted to civilian or military
positions, in accordance with section 324 of Public Law 110-181, "National Defense
Authorization Act for Fiscal Year 2008," and the May 28, 2009, Deputy Secretary of
Defense memorandum, "In-sourcing Contracted Services-Implementation
Guidance."

Air Force Comments (U)
(U) The Deputy Assistant Secretary agreed with the intent of the recommendation, stating
that the Air Force was in the process of reviewing its support contract inventory to meet
the intent of section 2463, title 10, United States Code, to ensure that contracts are not let
for inherently governmental functions, that personal services contracts are performed in
accordance with applicable statutory and regulatory guidelines, and would review each
for potential conversion to Government performance.

Our Response (U)
(U) The Deputy Assistant Secretary comments were responsive except the deputy did not
provide us with an estimated time frame as to when it would be completed. We request
that the Commanders Air Combat Command and Aeronautical Systems Center provide a
specific date as to when the recommended action will be completed.

(U) B.3. We recommend that the Commander, Aeronautical Systems Center,
perform an admiuistrative review to determine who tasked contractors to perform
inherently governmental functions and personal services, and take appropriate
disciplinary actions.

Air Force Comments (U)
(U) The Deputy Assistant Secretary agreed with the intent of the recommendation, and
stated that ASC conducted an administrative review and found that no Government
employee specifically directed the contractor to manage the morale fund. Program
officials removed this duty from the contractor. The CSAR-X program office issued a
policy memorandum on management of the morale fund.

Our Response (U)
(U) The Deputy Assistant Secretary comments were responsive and no further comments
are required.

(U) B.4. We recommend that the Commander, Aeronautical Systems Center, issue
guidance advising contracting officers that the release of Inspector General draft
reports outside DOD without the explicit permission of the Department of Defense
Office of Inspector General is strictly prohibited, and that contractors are
prohibited from drafting agency comments to Inspector General reports, in
accordance with Federal Acquisition Regulation 7.503, "Inherently Governmental
Functions."


                                             20 

Air Force Comments (U)
(U) The Deputy Assistant Secretary agreed with the intent of the recommendation and
stated that the Air Force Materiel Command is in the process of developing
policy/guidance to ensure all acquisition personnel understand the requirements and
prohibitions associated with Office of Inspector General draft audit reports. The
estimated issue date for formal guidance is June 30, 2010. In the interim, on February 5,
2010, the Commander, ASC, issued guidance instructing all ASC personnel that release
of DOD Inspector General draft reports to contractor personnel is prohibited.

Our Response (U)
(U) The Deputy Assistant Secretary comments were responsive and no further comments
are required.




                                           21 

Appendix A. Scope and Methodology (U)
(U) We conducted this perfonnance audit from December 2008 through September 2009
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perfonn the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. The audit resulted from congressional
concerns on the Air Force's use of advisory and assistance service contracts in support of
CSAR-X.

(U) To achieve the audit objectives, we identified and reviewed four task orders
providing advisory and assistance services in support of CSAR-X, valued at $32.7
million, issued under Anny and Air Force multiple-award contracts. We reviewed
documentation maintained at the contracting and program offices to support purchases
made under multiple-award contracts. The specific documents reviewed were military
interdepartmental purchase requests and acceptances, statements of work, cost proposals,
contract award documents, contracting officer's technical representative's letters,
detennination and finding documents, task orders, surveillance plans, price negotiation
memoranda, contract modifications, requests for proposals, IGCEs, and other
miscellaneous correspondence dated from March 2005 through June 2009. We
interviewed program managers, finance officials, and contracting officer's technical
representatives covering purchase requirements and acquisition, competition, fair and
reasonable price determination, and the monitoring of contracts.

(U) We perfonned our review at the offices of the Assistant Secretary of the Air Force for
Acquisition; U.S. Air Force Air Combat Command and Aeronautical Systems Center;
and the U.S. Army Communications and Electronics Command. Our purpose was to
detennine whether advisory and assistance services supporting the Air Force CSAR-X
program were in accordance with the FAR and DOD guidance. Additionally, we
interviewed contracting and program office officials located at U.S. Air Force Air
Combat Command and Aeronautical Systems Center and the U.S. Anny
Communications and Electronics Command.

Use of Computer-Processed Data (U)
(U) We did not use computer-processed data to perfonn this audit.

Prior Coverage (U)
(U) During the last 5 years, the DOD IG has issued one report discussing the Air Force
CSAR-X helicopter. Unrestricted DOD IG reports can be accessed at
http ://www. dodig.mil/audit/reports.

DODIG (U)
(U) DOD IG Report No. D-2009-027, "Air Force Search and Rescue Helicopter,"
December 8, 2008


                                            22
   Appendix B. Task Order Deficiencies (U)
  (U) Of the four task orders reviewed, all had administrative problems. The following
  table provides the deficiencies identified with each task order.
 Task                       Unduly      Inadequate      Inadequate      Inadequate      Performance of
            Task                                                                                         Performance
 Order                     Limited     Government        Price and       Contractor       Inherently
         Order Ceiling                                                                                   of Personal
Number                     Response    Cost Estimate     Technical      Surveillance    Governmental
          Value (U)                                                                                      Services (U)
  (U)                      Time (U)         (U)         Analysis (U)        (U)          Functions(U)


                         Conununications and Electronics Command-Fort Monmouth, New Jersey



F        $24,843,545
                         1-1                ·          1     ·         1     ·         1                 1    ·
F I       3,000 ,000
                         1-1                ·          1     ·         1     ·         1                 1    ·

l                          Aeronautical Systems Center-Wright Patterson Air Force Base, Ohio


                                                                                               .
F I      $2, 114,882
                         1-1                ·          1     ·         1     ·         1                 1    ·
F I       2,778,407
                         1-1                ·          1     ·         1     ·         1                 1




                                                           23 

Appendix C. Description of Task Orders
Reviewed (U)
Task Order 0138 (U)
(U) u.s. Anny CECOM awarded this task order under R2 multiple-award
contract DAAB07-03-D-BOI0, to Lear Seglar Incorporated (LSI), on September 13,
2006. The task order period of performance includes one 4-month base period and 4
option years. The task order has a potential task order ceiling value of $24.8 million.
The purpose of the task order is to provide services supporting management and process
planning, acquisition subject matter expertise, system engineering, military operations
analysis, modeling and simulation support, technical writing and editing, and information
technology support for the Air Force's ACC.

Task Order 0187 (U)
(U) u.s. Anny CECOM awarded this task order under R2 multiple-award 

contract DAAB07-03-D-B006, to ARINC Engineering Services, LLC, on September 26, 

2006. The period of performance for the entire task order is 48 months from the date of 

contract award, and specific periods of performance will be as specified on each discrete 

Engineering Assignment. The task order has an estimated ceiling value of $3 million, 

and provided U.S. Air Force Special Operations Forces with weapons acquisition, 

program management, financial analysis, engineering, and logistics support for the U.S. 

Air Force prime mission equipment in support of the MC-130 Combat Talon, AC-130U 

Gunship, Predator, and CSAR-X programs. 


Task Order 0031 (U)
(U) ASC awarded this task order under the CAPS multiple-award contract FA8622-06-D­
8509, to Innovative Technologies Corporation, on April 23, 2008, with a task order
period of performance through March 31,2009. This task order has an estimated value
of $2.1 million, and provided acquisition management, acquisition logistics, test and
evaluation, engineering, and administrative support to supplement ASC Government
orgamc resources.

Task Order 0103 (U)
(U) ASC awarded this task order under the CAPS multiple-award contract FA8622-06-D­
8506, to LOGTEC, Inc., on January 30, 2009, with a task order period of performance
through January 16, 2010. This task order has an estimated total value of $2.8 million,
which includes CSAR-X advisory and assistance services valued at $716,868. The task
order added contracted personnel positions in the areas of financial management,
acquisition management, acquisition logistics, engineering, configuration and data
management, test and evaluation, and Government-furnished property specialist support.
Contracted services under this task order supplement Government organic resources at
ASC and support the MC-130 Combat Talon, AC-130U Gunship, Battlefield Airman,
and CSAR-X programs.


                                            24
Department of the Army Comments (U) 





                     DEPARTMENT OF THE ARMY




       AMCIR




      2. TheAMC




                                       25 

                DEPARTMENT OF THE ARMY
           U.S. ARMY CONTRACTING COMMAND
                        Ctw'l!K !'lOAD
               POl'lT8aVOlA.!l1I   ~27




AMSCC·CG



                                                    VA

                                                Air Force




                                         26 

27
                            ARMY MATERIEL COMMAND 

                       RESPONSE TO DoDiG DRAFT REPORT: 

              Audit            and           Services Contracts in SUI)Oort 

                 of the Air Force Combat Search and Rescue He!licc,ptl~r 

                                  No. D2009-DO/JOAB·O/J73.000




Comments on Draft
did not determine ode,quate
Task Order 0187.




                                                      28 

                                                                                                        Final Report 

                                                                                                         Reference 





competition. The time and material rates that were bid at thac time were binding and were
incorporated into the resultant contlllCt. In addition to the price cmnpelition. the contract
specialist compared the proposed prime rates to those CUl'Tently on contract and found them to be
identical. as well as. comparing the subcontractor pricing to prime rates of similar labor
categories already on contract, The contraCting orficcr therefore detennined the price to be
reasonable.

       Rtfurn« Task Order 0138: CECOM Contracting Center, on Tas k Order 0 138: The
request for 13sk uecution plan was sent to the eight prime eontr.tctors. While only one proposal
was received. there was a reasonable expectation thai more than one offer would be rcceived.
The contract:          perfonned priced                                   labor rates,


     contract specialist took the proposed vendor rates and comp:ued them to two approved
subcontmc1Ors that already had similar labor categories on the basic contraa. The analysis
concluded dlat the vendor ratcs were comparable. The command does concur that the travel and
material under the ODes should have been more properly analyzed in the pria: analysis. The
CECOM ContraCting Center will ensure immediately that these areas will be properly addressed
in future detemllnations of price reasonableness.

RECQMMENI>ATIONS FOR THE COMMM'D£R. CECOM

RECOMMENDATION A· I : " Request that the Diru/tJr. De/ense Procurement WId
Ikqui$ition Policy establish reasonable soli(.'iratiQII response time/rames."
                                                                                                      Revised

COMMAND COMMENTS AND ACTION TAKEN

         Nonconcur. Each solicitation needs to cstabliMi response times that arc reasonable for the
specific eUan. The command does nO( concur thaI the Director, Defense Procurement needs 10
establis h reasonable ~Iicitation response time (rames that are applicable to each Multiple Award
Task Order (MATO) orders. The Rapid Response Project contracts were established to execute
a unique. competitive, and streamlined business process that will allow United Statu Federal
Government managers to acquire contractor-provided equipment and services. Task Order 01 87
and Task Order 0138 are task orden; under Multiple Award Task Order contracts. FAR Pan
16.505 b (I) (ii) allows broad discretion 10 the Contracting Officer 10 determine appropriale
ordering procedures. Each contractor had known (rom the lime of the solicitation. Statement of
Work paragraph 3.2. 1.2 (Enclosure 01). that a quick tum around was CJlpected on the request for
task execution plans and had developed internal processes 10 allow them to respond quickly.
Thus, for Task Order 0187 and Task Order 0138, the oommand believC$ the C$tablished response
tilTlCl were reasonable.

RECOMMEi'1>ATION A·3: ""Request t}c.t De/e"se Contract Audit A-genq perform an
iMurred rost audit/or Task OrduOJJ8. ­

COMMAND RESPONSE Ab'D ACTION TAKEN


                                                 ,



                                                            29 

                                        FOR OFFlCb'tL USE OHL'l 

3




    30 

Department of the Air Force Comments (U) 





                  OEPARTMENT OF THE AIR FORCE
                          WASHINGTON, DC




                                           31 

                                                                                                                            Final Report
                                                                                                                             Reference




                                                                                                                          Revised




Air l;'nn:e                COli em' "'ith intent. The I',\R                                        to t'<lIIn,"at"'m"
Offin'l1i to deh'rmiru: the tinu'fnmu'S needed to oilt.lill "OIlh1tdOI' bids. Tlu' i"!lIl(' lU'l'd" to ronls 011
wln>thel' tlU' timt' rmme IIlIuttlld tn subntit bids for thest' tusk OI'dlll'S Wlln, within the: pal'unu'tlll1i
list II bUshed ill tbe eonti',Il't itself. We lire eOlleenled tllllt tile infol'mllUolI            does lIot
                         tha.         illelllll ben. eOIl'n1l:tOl" wel'('     to 511 bmit               \\'(' IIlso
                        diffil'ulf t€n' 1>1'''\1' to establish fimt'frnmes for nil solidbdions. but
minimum fimeiines ;11'1,' IU"'('SS;II~           enSllI'e fnir            to submit bids for .111 ('OIllIl'l'titOl:"'i,




                                                                        32 

A.2.h.




         33 

Air
      illlu'I'('nth" gO'"CII'ftliuclltlal dutics IIn:- IlOt being
                 .'o,tlh'II"tiIl9otlil'el'    el1"UI','   ('ull'nn1 dutil's




                             34 

;\ir Fon't' Rf'SDon!Si.:: ('OIU'IU \'\'itll ASf' ,mil AC(' t'Ollllllt'nts, It ,lIso riot elt'''I' to wlu:tht'r
these wel'e the                             in the sUI'\'eUhuu,e       or if the ( 'OR dill Itot follow the
suneilhlDl'e




                                                                      35 

                    Final Report
                     Reference




                  Revised

                  Renumbered as
                  Recommendation
                  B.2

                  Renumbered as
                  Recommendation
                  B.3

11.2.1).




IU.h.




           36 

                                                                                                                         Final Report
                                                                                                                          Reference




U.2.h.




                                                                                       oi'tld:! rel'onmu'ruhdion
                                                                             orders h:n'e ('ontl;,ldor:! that
                                           gO'H~I'mm'nt i'urllished lools .lIul
                                  one )'ear dOl':! not mean        are perljllllling
                             of n"l'i('wing         snppmt nmlnu:t illH~ntorJ to
1:8(', Sedion            and m~I)SECm~F memo In~Soureinl! Coutnu:ted :-.elt'Vllc'e;v-lmJltelineutlltitm
(iuidance. dated 28            2009, to ensure contrllds nrc not let fOl'lnl"""'n'II\' !!O'~'el!'mnellt:11
fuuctions, tlmt                           I'ont !'IU't;;              in IU'('OI"'lInl'e with             Sllltutury
Imd rCI!llt:ltolj' j!;uidelinc!I, :Ind l'c\'lc1\'                                  to go\'clumcnt pCI'I(u'nllUlcc,




                                                                                                                       Renumbered as
                                                                                                                       Recommendation
                                                                                                                       B.4




                                                                       37
DEPARTMENT OF THE AIR FORCE
        WASHINGTON, DC




                         38 

DEPARTMENT OF THE AIR FORCE




                   39 

DF:PARTMF:NT 01<' TUF: AIR FORCF:




                        40 

    an~lgclincllt   of Morale Fund


I




                              41 

42 

43 

